                 The Internal Revenue Service’s Federal
                 Financial Management Improvement Act
                Remediation Plan As of December 31, 2004

                                    March 2005

                       Reference Number: 2005-10-068




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                 DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      March 25, 2005


      MEMORANDUM FOR CHIEF FINANCIAL OFFICER



      FROM:                            Pamela J. Gardiner
                                       Deputy Inspector General for Audit

      SUBJECT:                         Final Audit Report - The Internal Revenue Service’s Federal
                                       Financial Management Improvement Act Remediation Plan As of
                                       December 31, 2004 (Audit # 200510007)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Federal Financial Management Improvement Act of 1996 (FFMIA)1 remediation plan as
      of December 31, 2004. The overall objective of this review was to identify any
      instances and reasons for missed intermediate target dates established in the IRS’
      FFMIA remediation plan. We also evaluated whether the IRS was meeting its
      responsibilities in fulfilling the intent of the FFMIA. The review was performed to meet
      our requirement under the FFMIA that states, in general, each Inspector General shall
      report to the Congress instances and reasons when an agency has not met the
      intermediate target dates established in the remediation plan.
      In summary, we determined from our review of all 12 open remedial actions as of
      December 31, 2004, that 1 intermediate target date was missed and 6 dates were
      extended. Although the IRS has reasonable explanations for these missed and
      extended dates, these delays could further hinder the IRS’ ability to timely resolve the
      reported issues that cause its noncompliance with the FFMIA.
      Also, all of the 12 open remedial actions had intermediate target dates that extended
      more than 3 years from the initial reporting of the financial weakness. As required, the
      IRS, through the Department of the Treasury, properly obtained Office of Management
      and Budget concurrence to extend its corrective actions beyond the 3-year limitation. In
      addition, our analysis of individual project resources listed in the December 31, 2004,



      1
          Pub. L. No. 104-208, 110 Stat. 3009.
                                            2

remediation plan indicated that project resources were generally verifiable to supporting
documentation.
However, our analysis also indicated 45 remedial actions were canceled prior to
completion in 2004. Forty-two (93 percent) of the 45 canceled actions were related to
critical future releases of the Integrated Financial System and Custodial Accounting
Project, both of which are key financial management projects. The IRS reported this
action was taken because both projects were significantly behind schedule and faced
funding shortfalls. The canceled remedial actions were replaced by two placeholder
remedial actions to develop new plans. Until the IRS develops new remediation actions
and milestones to replace these placeholders, we will be unable to reliably assess the
IRS’ progress in resolving many of the significant issues which cause its noncompliance
with the FFMIA.
Finally, our analysis indicated the IRS removed seven unaddressed findings and
recommendations in 2004. The findings and recommendations all relate to
accountability over property and equipment. The IRS informed us the findings and
recommendations were temporarily removed pending completion of the new plan
discussed above. We believe it is critical that the IRS maintain and continue to report
all significant open findings and recommendations. We discussed this issue with the
IRS during our fieldwork, and management informed us they plan to reinstate the
removed findings and recommendations in the next FFMIA remediation plan update, for
the quarter ending March 31, 2005.
We do not have any specific remediation plan recommendations to offer as a result of
our analysis during this audit. However, management reviewed a draft of this report
and agreed with its contents.
Copies of this report are also being sent to the IRS managers affected by the report
findings. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.
        The Internal Revenue Service’s Federal Financial Management Improvement
                       Act Remediation Plan As of December 31, 2004



                                              Table of Contents


Background ................................................................................................ Page 1
Some Intermediate Target Dates Were Missed or Extended ..................... Page 2
All Remedial Actions Related to Future Releases of the
Integrated Financial System and Custodial Accounting Project
Were Canceled .......................................................................................... Page 3
Appendix I – Detailed Objectives, Scope, and Methodology ...................... Page 5
Appendix II – Major Contributors to This Report ........................................ Page 6
Appendix III – Report Distribution List ........................................................ Page 7
Appendix IV – Financial Management Remedial Action Projects............... Page 8
      The Internal Revenue Service’s Federal Financial Management Improvement
                    Act Remediation Plan As of December 31, 2004

                                The Federal Financial Management Improvement Act
Background
                                of 1996 (FFMIA)1 established in statute certain financial
                                management systems requirements that were already
                                established by Executive Branch policies. The FFMIA was
                                intended to advance Federal financial management by
                                ensuring that Federal management systems can and do
                                provide reliable, consistent disclosure of financial data.
                                Further, this disclosure should be done on a basis that is
                                uniform across the Federal Government from year to year,
                                by consistently using professionally accepted accounting
                                standards. Specifically, Section (§) 803 (a) of the FFMIA
                                requires each agency to implement and maintain systems
                                that comply substantially with:
                                      •    Federal financial management systems requirements.
                                      •    Applicable Federal Government accounting
                                           standards.
                                      •    The Government Standard General Ledger at the
                                           transaction level.
                                Auditors are required to report on agency compliance with
                                the three stated requirements as part of financial statement
                                audit reports. Agency heads are required to determine,
                                based on the audit report and other information, whether
                                their financial management systems comply with the
                                FFMIA. If the agency’s financial systems do not comply,
                                the agency is required to develop a remediation plan that
                                describes the resources, remedies, and intermediate target
                                dates for achieving compliance and file the plans with the
                                Office of Management and Budget (OMB).
                                In addition, § 804 (b) of the FFMIA requires agency
                                Inspectors General to report to the Congress instances and
                                reasons when an agency has not met the intermediate target
                                dates established in its remediation plan.
                                In the last several years, the Government Accountability
                                Office (GAO) has reported numerous financial management
                                weaknesses in its audits of the Internal Revenue Service’s
                                (IRS) annual financial statements and related assessments of
                                internal control. Due to these weaknesses, the IRS’


                                1
                                    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                       Page 1
       The Internal Revenue Service’s Federal Financial Management Improvement
                     Act Remediation Plan As of December 31, 2004

                                 financial management systems have not been in substantial
                                 compliance with the requirements of the FFMIA;
                                 consequently, the IRS has been required to prepare and
                                 maintain a remediation plan.
                                 This review was performed during the period October 2004
                                 through February 2005 in the office of the Chief Financial
                                 Officer at the IRS National Headquarters located in
                                 Washington, D.C. The audit was conducted in accordance
                                 with Government Auditing Standards. Detailed information
                                 on our audit objectives, scope, and methodology is
                                 presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 The IRS reported 12 open remedial actions in its
Some Intermediate Target
                                 December 31, 2004, remediation plan. All of these open
Dates Were Missed or Extended
                                 actions were associated with five major financial
                                 management projects or issues:
                                    •   The Integrated Financial System (IFS) – four
                                        remedial actions.
                                    •   The Custodial Accounting Project (CAP) - two
                                        remedial actions.
                                    •   The Complex Interest Quality Measurement System
                                        (CIQMS) - two remedial actions.
                                    •   The Automated Trust Fund Recovery (ATFR)
                                        System - three remedial actions.
                                    •   Security – one remedial action.
                                 See Appendix IV for a detailed description of each project.
                                 Our detailed review of the 12 open remedial actions
                                 indicated 1 intermediate target date was missed and
                                 6 dates were extended.
                                 Missed intermediate target date
                                 The IRS reported the missed target date was due to delays in
                                 monitoring performance of CAP Release 1 attributable to a
                                 change in contract structure.
                                 Extended intermediate target dates
                                 The IRS extended six remedial action intermediate target
                                 dates. Three of the six extended dates were attributed to
                                                                                       Page 2
         The Internal Revenue Service’s Federal Financial Management Improvement
                       Act Remediation Plan As of December 31, 2004

                                    delays in end-user training, performance monitoring, and the
                                    implementation of IFS Release 1. Two extended dates were
                                    attributed to hiring delays of interest reviewers for the
                                    CIQMS and identification of additional controls needed to
                                    improve computer security. The final extended date was
                                    attributable to performance monitoring related to CAP
                                    Release 1.
                                    Although the IRS has reasonable explanations for these
                                    missed and extended intermediate target dates, these delays
                                    could further hinder the IRS’ ability to timely resolve the
                                    reported issues that cause its noncompliance with the
                                    FFMIA.
                                    All of the 12 open remedial actions had intermediate target
                                    dates that extended more than 3 years from the initial
                                    reporting of the financial weakness. As required, the IRS,
                                    through the Department of the Treasury, properly obtained
                                    OMB concurrence to extend its corrective actions beyond
                                    the 3-year limitation.
                                    Finally, our analysis of individual project resources for the
                                    12 remediation actions listed in the December 31, 2004,
                                    remediation plan showed that project resources were
                                    generally verifiable to supporting documentation. Also, the
                                    GAO did not report any additional recommendations that
                                    would have required inclusion in the IRS’ remediation plan
                                    as a result of its Fiscal Year 2004 financial statement audit.
                                    During Calendar Year (CY) 2004, the IRS reported it
All Remedial Actions Related to
                                    completed 17 and added 4 remedial actions to the 70 open
Future Releases of the Integrated
                                    remedial actions listed in its December 31, 2003,
Financial System and Custodial
                                    remediation plan. Also during 2004, the IRS reported that it
Accounting Project Were
                                    canceled 45 remedial actions before completion, leaving
Canceled
                                    12 open remedial actions listed in its December 31, 2004,
                                    remediation plan.
                                    Our analysis of the 45 actions canceled in CY 2004
                                    indicated that 42 of the actions were related to critical future
                                    releases of the IFS and CAP, both of which are key financial
                                    management projects. The IRS reported both projects were
                                    significantly behind schedule and faced funding shortfalls,
                                    and further development of these two projects has been
                                    suspended or canceled. These 42 canceled actions were
                                    replaced by 2 placeholder remedial actions to develop new

                                                                                             Page 3
The Internal Revenue Service’s Federal Financial Management Improvement
              Act Remediation Plan As of December 31, 2004

                          plans. The IRS reported it expected to complete
                          development of the new plans to address the cancellation of
                          future releases of the IFS and CAP by July 31, 2005, and
                          October 1, 2006, respectively. We currently are planning a
                          review of the actions the IRS will be taking on the revenue
                          accounting issues.
                          Two of the remaining three canceled remedial actions dealt
                          with the IRS’ Trust Fund Recovery Program, and the final
                          canceled remedial action was related to the CIQMS. The
                          IRS had reasonable explanations for canceling these actions.
                          In addition to the two placeholder actions, described above,
                          the remaining two actions added to the FFMIA remediation
                          plan during CY 2004 related to the ATFR system.
                          Until the IRS develops new remediation actions and
                          milestones to replace these placeholders, we will be unable
                          to reliably assess the IRS’ progress in resolving many of the
                          significant issues which cause its noncompliance with the
                          FFMIA.
                          Removed findings and recommendations
                          The IRS also removed seven unaddressed findings and
                          recommendations from its December 31, 2004, remediation
                          plan. The findings and recommendations all related to the
                          accountability over property and equipment. The IRS
                          informed us the findings and recommendations were
                          temporarily removed pending completion of the new plan
                          discussed above. We believe it is critical that the IRS
                          maintain and continue to report all significant open findings
                          and recommendations. We discussed this issue with the IRS
                          during our fieldwork, and management informed us they
                          plan to reinstate the removed findings and recommendations
                          in the next FFMIA remediation plan update for the quarter
                          ending March 31, 2005. We will continue to monitor
                          FFMIA remediation plan updates throughout the year.




                                                                                Page 4
          The Internal Revenue Service’s Federal Financial Management Improvement
                        Act Remediation Plan As of December 31, 2004

                                                                                       Appendix I


                           Detailed Objectives, Scope, and Methodology

The overall objective of this review was to identify any instances and reasons for missed
intermediate target dates established in the Internal Revenue Service’s (IRS) Federal Financial
Management Improvement Act of 1996 (FFMIA)1 remediation plan. We also evaluated whether
the IRS was meeting its responsibilities in fulfilling the intent of the FFMIA. To accomplish our
objective, we:
I.         Gained an understanding of the requirements of the FFMIA, including Office of
           Management and Budget and Department of the Treasury guidance for compliance with
           the FFMIA.
II.        Determined whether the IRS’ remediation plan was consistent with Government
           Accountability Office recommendations from prior IRS financial audits and related
           financial management reports.
III.       Determined whether 1) the IRS missed any intermediate target dates established in its
           remediation plan, 2) intermediate target dates were extended without sufficient
           documentation to support the revised date, and 3) proper approval was obtained for
           remedial actions extending more than 3 years.
IV.        Determined whether the IRS remediation plan had established resource needs for
           remedial actions and the resources presented were consistent with other IRS
           modernization resource budgets.
V.         Determined whether the IRS had taken adequate corrective actions on prior reported audit
           findings.




1
    Pub. L. No. 104-208, 110 Stat. 3009.


                                                                                            Page 5
       The Internal Revenue Service’s Federal Financial Management Improvement
                     Act Remediation Plan As of December 31, 2004

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Philip A. Smith, Lead Auditor
Thomas Dori, Senior Auditor
Bobbie M. Draudt, Senior Auditor




                                                                                      Page 6
       The Internal Revenue Service’s Federal Financial Management Improvement
                     Act Remediation Plan As of December 31, 2004

                                                                       Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of Management Controls OS:CFO:AR:M
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Audit Liaison: Chief Financial Officer OS:CFO




                                                                             Page 7
           The Internal Revenue Service’s Federal Financial Management Improvement
                         Act Remediation Plan As of December 31, 2004


                                                                                    Appendix IV


                         Financial Management Remedial Action Projects

The Internal Revenue Service (IRS) has initiated five significant financial management projects
in response to the various material weaknesses identified by the Government Accountability
Office (GAO) relating to the Federal Financial Management Improvement Act of 1996.1 The
IRS described the functionality of the projects contained in its remediation plan as follows:
The Integrated Financial System (IFS): The IFS, when fully implemented, will provide the
IRS with an integrated accounting system to account for and control resources. The first release
of the IFS includes the General Ledger, Accounts Receivable, Accounts Payable, Funds and Cost
Management, and Financial Reporting, as well as Budget Formulation.
Release 2 was to focus on asset management and a software technical and functional upgrade,
including the configuration efforts to allow use of the enhanced features in the cost accounting
and finance modules. Currently, all work on IFS Release 2 has been deferred due to the need for
the IRS to balance its systems modernization portfolio with management capacity and available
budget.
Procurement Management was planned for Release 3. All remaining functionality, with the
exception of Travel Management, was planned for Release 4. Travel Management has been
deleted from the functional requirements as a result of the Government-wide travel system
development efforts. Content of all future releases is being reevaluated and all future releases
have been delayed or placed on indefinite hold.
The Custodial Accounting Project (CAP): Formerly the Enterprise Data Warehouse/CAP, the
CAP is being stopped due to budget cuts. The IRS is currently examining other options for
reducing the weakness to a reportable condition. The Acting Chief Financial Officer (CFO),
Business Systems Modernization, and Business Systems Development are currently developing a
business case to determine whether this approach can be funded from the 2005 or 2006
Information Technology budget.
The Complex Interest Quality Measurement System (CIQMS)/Related Systems: The IRS
will implement the CIQMS review process to reduce errors in calculating interest; develop a
database to monitor and measure accuracy; implement Decision Modeling Incorporated Interest
Net Software to provide functionality; and automate net rate interest adjustments, as well as all
other necessary interest computations.
The Automated Trust Fund Recovery (ATFR) System: The ATFR system provides the
capability to systematically upload Trust Fund Recovery Penalty assessments from the Area


1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                           Page 8
       The Internal Revenue Service’s Federal Financial Management Improvement
                     Act Remediation Plan As of December 31, 2004

Offices and properly cross-references payments received for assessments made. The ATFR
system will replace manual processes and ensure compliance with GAO requirements and
accounting standards. Phase 1 will automate the calculation of the penalties and assessment
process, Phase II will automate the cross-referencing process, and Phase III will centralize all
recovery cases into one compliance center. In October 2004, the IRS determined it is not
feasible to convert legacy accounts to the ATFR system. The Small Business/Self-Employed
Division is working with the Acting CFO and GAO to address issues with the remaining legacy
accounts.
Security: This project addresses internal control deficiencies cited in various audits; initiates
efforts to expand deterrent controls implemented at campuses, field offices, and post-of-duty
offices to ensure uniformity and consistency; develops appropriate means through which the IRS
can carry out periodic reviews of the effectiveness of policies and procedures, along with means
to address security breaches; updates access control standards to reflect changes in technology
and operating environments; provides computer security training to personnel; and conducts
computer security self-assessment reviews that identify and mitigate vulnerabilities on a
proactive basis.
Based on recent Treasury Inspector General for Tax Administration findings during the review
of the computer security material weakness, the Mission Assurance & Security Services
organization, in partnership with the Chief Information Officer, have developed new program
action plans for the following five issues: (1) Access Controls, (2) Rules of Behavior, (3) Audit
Trails, (4) Training, and (5) Process Authorizations (Certifications and Accreditations). The
high level plan was presented at the January 18, 2005, Financial and Management Controls
Executive Steering Committee meeting.




                                                                                          Page 9
